A'l
SUPREME COURT, STATE OF COLORADO
“In Re: ESTATE OF TODD A. AURIT as entity, and Todd A. Aurit as individual
vs. Siobhan Bartlow as U.S. person, Warden
Petitioner:
ESTATE OF TODD A. AURIT as entity,
and Todd A. Aurit as individual.
vs
Respondent:
Siobhan Bartlow as U.S. person, Warden.

Pro se Kathleen Aurit- Schaefer as Attorney-in-fact in behalf of the petitioner

PETITION FOR A WRIT OF HABEAS CORPUS UNDER C.A.R.
RULE 21
Petitioner name as individual: non-U.S. person Todd A. Aurit-foreign grantor trust
Petitioner name as entity: non-statutorv ESTATE OF TODD A. AURIT becomes a
FOREIGN ESTATE OF TODD A. AURIT
Place of confinement
Institution name: Fremont Correctional Facility
Location: East U.S. Highway 50 Evans Blvd Canon City, Colorado 81215
Inmate identification number: 127586
Petitioner is currently being held on orders by: State of Colorado authorities

1

1. Serving sentence incarceration after having been convicted of crime first
case sentenced by the court of Douglas County District Court.
Docket number of criminal case: 04CR220
Date of sentencing: August 5th, 2005
2. Serving sentence incarceration after having been convicted of crime second
case sentenced by the court of Douglas County District Court.
Docket number of criminal case: 06CR374
Date of sentencing: August 24th, 2007.
3. Serving sentence incarceration after having been convicted of crime third
case sentenced by the court of Douglas County District Court.
Docket number of criminal case: 15CR0538
Date of sentencing: January 19 th ,2016.

Challenges of Decision or Action
First Appeal
Appeal decision and/or seek an administrative remedy
Name of the Court: Colorado Court of Appeal
Date filing: 10/05/2007
Case number: 2007CA1967
Status: Mandate Issued
Type: Criminal-Direct Appeal

2

Second Appeal
Name of the Court: Colorado Court of Appeal
Date filing: 03/13/2008
Case number: 2008CA539
Status: Dismissed
Type: Criminal- Rule 35 Appeal

Third Appeal
Name of the Court: Colorado Court of Appeal
Date filing: 12/15/2009
Case number: 2009CA 2691
Status: Dismissed
Type: Criminal-Rule 35 Appeal

Fourth Appeal
Name of the Court: Colorado Court of Appeal
Date filing: 01/03/13
Case number: 2013CA1697
Status: Dismissed
Type: Criminal-Rule 35 Appeal

3

Fifth Appeal
Name of the Court: Colorado Court of Appeal
Date filing: 12/10/15
Case number: 2015CA2050
Status: Dismissed
Type: Criminal- Other

Sixth Appeal
Name of the Court: Colorado Court of Appeal
Date filing: 04/28/17
Case number: 2017CA752
Status: Dismissed, Limited Access
Type: Criminal- Rule 35 Appeal

Seventh Appeal
Name of the Court: Colorado Court of Appeal
Date filing: 04/28/17
Case number: 2017CA753
Status: Dismissed
Type: Criminal- Rule 35 Appeal

4

Eighth Appeal
Name of the Court: Colorado Court of Appeal
Date filing: 05/24/17
Case number: 2017CA933
Status: Dismissed
Type: Civil-Other

Ninth
Name of the Court: DISTRICT COURT, FREMONT COUNTY
Date filing: 10/3/17
Case number: 17PR37
Status: Denied without prejudice
Type: Probate

Tenth Appeal
Name of the Court: Colorado Court of Appeal
Date filing: 11/14/19
Case number: 2019CA2088
Status: Dismissed
Type: Criminal

5

Eleventh
Name of the Court: DISTRICT COURT, FREMONT COUNTY
Date filing: 05/20/20
Case number: 20CV189
Status: Dismissed with prejudice
Type: Civil
Issued raised: Effect of power to veto decisions and voluntary trial Judge
disqualified.
Others (Memorandums)
See memorandum attached Petitions, publications, notices and claims about issues
raised in this petition and informal steps of terminated any/all disputes against the
non-statutory estate and trust.
_Kind of petition: IRS final return
Name of the authority: IRS
Date filing: July 12, 2019
In reply refer to: 0433327465
Result: No further action letter
Kind of publication: Public Notice
Proof of publication: THE COLORADO CHIEFTAIN
Date filing: 06/14/18
Record number: Clerk of Fremont County 962729

6

Result: Publicized without objection
Kind of petition: Notification of removal to State of Colorado Board of
Trustee
Name of the authority: Colorado Board of Trustee
Date filing: 6/13/18
Result: Without objection
Kind of petition: Colorado State Department Apostille letter
Name of the authority: Secretary of State of the Colorado State of Colorado
Date filing: 21/10/19
Number: 4193448522
Result: Certified
_Kind of petition: Colorado Department of Revenue
Name of the authority: Colorado Department of Revenue
Date filing: 1/3/19
Result: Without objection
Kind of petition: Colorado Social Security Administration
Name of the authority: Colorado Social Security Administration
Date filing: 01/14/19
Result: Without objection

7

Kind of petition: Provision of the Colorado Open Records Act
Name of the authority: Colorado State Treasurer
Date filing: 4/29/19
Result: Without objection

Grounds for Challenge in This Petition
Petitioner does state the reasons, because of Petitioner is being held in violation to
the treaties of the United States. Petitioner states the facts supporting each ground.

GROUND ONE:
Petitioner is in custody and control under or by in violation of the U.S.
Bilateral Tax Treaties.
Petitioner did not present Ground One in all appeals that were available.

GROUND TWO:
Petitioner is in custody and control under or by color of authority of the
United States of Colorado that attempt exercise primary supervision, failing to
meet neither the court test, nor control test, and one (warden) or more U.S.
fiduciaries does not have the authority to control all substantial decisions of the
trust.
Petitioner did not present Ground Two in all appeals that were available.
8

GROUND THREE:
Petitioner is in custody and control under or by in violation of the election of
automatic migration provisions over the non-U. S. Foreign Trust &Estate causing
one or more substantial decision.
Petitioner did not present Ground Three in all appeals that were available.

GROUND FOUR:
Petitioner is in custody and control under or by in violation of the treaty of
exempt status claimed as non-U.S. person.
Petitioner did not present Ground Four in all appeals that were available.

GROUND FIVE:
Petitioner non-statutory Estate (fiction as purpose of the law) is in custody and
control under or by in violation of Petitioner’s election to become non-U.S. foreign
Estate.
Petitioner did not present Ground Five in all appeals that were available.

GROUND SIX:

9

Petitioner is in custody and control under or by in violation of the (Certificate of
foreign Status of the Beneficial Owner for the United States Tax withholding and
Reporting (individual)).
Petitioner did not present Ground Six in all appeals that were available.
Petitioner did not present any ground in all appeals that were available to him,
Petitioner will explain why did not:
Petitioner failed to develop the factual basis of claims in all court appeal process.
Petitioner discovered by close scrutiny a factual predicate that had not been
previously discovered through the exercise of due diligence; the discover facts are
clear and convincing evidence of a violation of U.S. tax treaties by error and/or by
presumption that individual is an United States beneficiary, unless that the
custodian can provide substantial evidence under penalty ofprejudice to satisfy the
control test over the petitioner which for treaty elected not being effectively
connected with the conduct of trade or business into the United States.
The election is the result the individual no longer having any reasonable basis for
being treated as a domestic individual changing its residency to a foreign trust and
estate, such trust shall be treated as having transferred, immediately before
becoming a foreign trust.
The petitioner elect to remain a foreign trust and estate under or by U.S. treaty,
transferrins all its assets and liabilities immediately before becomins a foreisn
trust, that election once made, is irrevocable, only be revoked with the consent of
the Commissioner.

Jurisdiction and venue
10

The Court has original jurisdiction over the custodian as domestic and U.S. person,
pursuant to Colorado State Constitution ARTICLE VI. Sec.l, Sec 3, ARTICLE II.
Sec. 3, Sec. 6, Sec. 9, Sec. 12.
Request for Relief
Petitioner prays for further relief in the name of The Non-U. S. Person Todd A.
Aurit and the non-statutory ESTATE OF TODD A. AURIT stating the following:
1. Grant the writ of habeas corpus;
2. Decree that the custodian as domestic and U.S. person (warden) conscious and
voluntarily did not honor the provisions of U.S. tax treaties;
3. Command to the custodian to bring the prisoner before us, into court to testify or
for trial;
4. Order to release from confinement the prisoner help by the warden; and
5. Decree release from illegal custody with prejudice as final order.
Declaration
I declare under penalty of perjury that I am the petitioner, I have read this petition,
and the information in this petition is true and correct.
Date: August 21,2020

Ry: todd
Restricted, Private, Special
Without Prejudice
I reserve all my rights
Legal next-of-kin as attorney-in-fact
Petitioner
kathleen aurit-schaefer

11

1

DATE FILED: October 19, 2020

Colorado Supreme Court
2 East 14th Avenue
Denver, CO 80203
Original Proceeding
District Court, Douglas County, 2004CR220
In Re:

Supreme Court Case No:
2020SA306

Plaintiff:
The People of the State of Colorado,
v.
Defendant:
Todd Anthony Aurit.
ORDER OF COURT

Upon consideration of the Petition for Writ of Habeas Corpus Under C.A.R.
Rule 21 filed in the above cause, and now being sufficiently advised in the
premises,
IT IS ORDERED that said Petition for Writ of Habeas Corpus Under C.A.R.
Rule 21 shall be, and the same hereby is, DENIED.
BY THE COURT, EN BANC, OCTOBER 19, 2020.

2010192036 2073 1-174-1004 2

962729
„ PROOF OF PUBLICATION AFFIDAVIT

Pages: 1 of 1

06/14/2018 03:35 PI1
Katie E

R Fee:$13.00

Barr, Clerk and Recorder, Fremont County, CO

III

I III

THE PUEBLO CHIEFTAIN

STATE OF COLORADO,
) s.s.
County of Pueblo,

)

I, Liz Colvin do solemnly swear that I am an
employee of THE COLORADO CHIEFTAIN; that the
same is a weekly newspaper printed, in whole or in
part and published in the County of Pueblo,
State of Colorado, and has a general circulation
therein; that said newspaper has been published
continuoulsy and uninterruptedly in said County
of Pueblo for a period of more than 52 consecutive
weeks next prior to the first publication of the annexed
legal notice or advertisment; that said newpaper has
been admitted to the United States Mail as a
as a second class matter under the provisions of
the act of March 3rd, 1987, or any amendment
thereof duly qualified for publishing legal notices
and advertisements within the meaning of the
laws of the State of Colorado of which is attached
a true copy from said newspaper and was

PUBLIC NOTICE
Notice is hereby given that Todd Anthony Aurit -Private Attorney General is
duly appointed and qualified as the, protector/trustce and administrator of the
Estate of TODD ANTHONY AURIT. Todd Anthony Aurit, the settlor of the
Estate of TODD ANTHONY AURIT dated December 12,2017, number of
this notice- CP575B. After makinu a public notice ofTODD ANTHONY
AURIT Estate Planning titled “PUBLIC NOTICE OF CORPORATIVE
ENTITY DI-ATI i" on 05/Hi id IS /05/22/2GI8. nu lopuiiae wa» iccciwu

by any administrative agencies, fiduciaries, creditors, associated offices,
third parties, co-trustee, affiliated and subsidiary offices or anyone interested
in this estate. Furthermore, the following Colorado State trustee's Wayne W.
Williams Colorado Secretary of the State, Marguerite Salazar Executive
Director/ Commissioner/ of the Colorado Department of Regulatory
Agencies and Michael S. Hartman Executive Director of (lie Colorado
Department of Revenue was received and have not responded . Any claim
against the Estate ofTODD ANTHONY AURIT is null, void, and voidable.
Any claim against (he Estate of I ODD AN 1110NY AIJRl I is nondischargeable.There were no claims or any disputes filed against the estate
of TODD ANTHONY AURIT therefore; this is a “Final Order”. Fiduciary
Todd Anthony Aurit -Private Attorney General, c/o General Post, Canon
City1, Colorado state non domestic 81212 date: May 24,201S.

published on the following dates:
6/1, 6/8

PUBLISHED:

In witness whereof, I have hereunto set my hand
this

A.D. 2018.

day of

i
Subscribed and sworn to before me, a Notary Public
in and for the County of Pueblo, State of Colorado,
A.D. 2018.

this

Notary Public

■24£l

MONICA S. SWEENEY

tfSSft TT> C Department of the Treasury
9/ntHl lJXO Internal Revenue Service

OGDEN

UT

84201-0046

0423694468
In reply refer to:
LTR 696C
0
Dec . 24, 2019
000000 00
98-6094857
00008091
BODC: SB

TODD ANTHONY AURIT-FORE IGN GRANTOR
TR
TODD ANTHONY AURIT TTEE
PO BOX 1303
CANON CITY CO 81215-1303
010773

Taxpayer Identification Number:

98-6094857

Dear Taxpayer:
Thank you for the inquiry dated Dec. 02, 2019.
Our records show you no.longer have to file Form(s)
1041 .
You can get forms, schedules, or publications, by visiting the IRS
website at www.irs.gov or by calling toll-free at 1-800-TAX-FDRM
C1-800-829-3676).
If you have any questions, please call us toll free at 1-800-829-0115,
or you may write to us at the address shown at the top of the first
page of this letter.
Whenever you write, please include this letter and, in the spaces
below, give us your telephone number with the hours we can reach you.
Keep a copy of this letter for your records.
Telephone Number C

Hours

We apologize for any inconvenience we may have caused you, and thank
you for your cooperation.
Sincerely yours,

Sheri L. Steed
Entity Department Manager
Enclosure Cs):
Copy of this letter

I

TD C Department of the Treasury
Vfi&fl llVkJ Internal Revenue Service

OGDEN

UT

In reply refer to:
0423612107
Oct. 27, 2020
LTR 696C
0
98-6088667
000000 00
00009860
BODC: SB

84201-0046

si
TODD ANTHONY AURIT FOREIGN ESTATE
KATHLEEN A SCHAEFER EX
PO BOX 1303
CANON CITY CO 81215-1303

039923

Taxpayer Identification Number:

98-6088667

Dear Taxpayer:
Thank you for the inquiry dated Nov. 25, 2019.
Our records show you no longer have to file Form(s)
1041.
You can get forms, schedules, or publications, by visiting the IRS
website at www.irs.gov or by calling toll-free at 1-8Q0-TAX-FORM
(1-800-829-3676).
If you have any questions, please call us toll free at 1-800-829-0115,
or you may write to us at the address shown at the top of the first
page of this letter.
Whenever you write, please include this letter and, in the spaces
below, give us your telephone number with the hours we can reach you.
Keep a copy of this letter for your records.
Telephone Number (

)

Hours

We apologize for any inconvenience we may have caused you, and thank
you for your cooperation.
Sincerely yours,

Sheri L. Steed
Entity Department Manager
Enclosure(s):
Copy of this letter

C

X

/
Ml TP C DEPARTMENT OF THE TREASURY

vffia"// -iivo internal

revenue service

CINCINNATI

OH

45999-0023
■
Date of this notice:

m

03-22-2018

003872.838711.3693.21546 1 MB 0.424 530

Employer Identification Number:
98-6088667

........... .

Form:

SS-4

Number of this notice:
AURIT ESTATE
TODD ANTHONY
KATHLEEN A SCHAEFER EX
1821 N 5TH ST APT 218
CANON CITY CO
81212

D3872

CP 575 B

For assistance you may call us at:
1-800-829-4933
IF YOU WRITE, ATTACH THE
STUB OF THIS NOTICE.

WE ASSIGNED YOU AN EMPLOYER IDENTIFICATION NUMBER
Thank you for applying for an Employer Identification Number (EIN). We assigned
you EIN 98-6088667. This EIN will identify your estate or trust. If you are not the
applicant, please contact the individual who is handling the estate or trust for you.
Please keep this notice in your permanent records.
When filing tax documents, payments, and related correspondence, it is very
important that you use your EIN and complete name and address exactly as shown above.
Any variation may cause a delay in processing, result in incorrect information in your
account, or even cause you to be assigned more than one EIN.
If the information
is not correct as shown above, please make the correction using the attached tear-off
stub and return it to us.
Based on the information received from you or your representative, you must file
the following form(s) by the dateCs) shown.
Form 1041

04/15/2019

If you have questions about the form(s) or the due dates(s) shown, you can call
us at the phone number or write to us at the address shown at the top of this notice.
If you need help in determining your annual accounting period (tax year), see
Publication 538, Accounting Periods and Methods.
We assigned you a tax classification based on information obtained from you or
your representative. It is not a legal determination of your tax classification
and is not binding on the IRS. If you want a legal determination of your tax
classification, you may request a private letter ruling from the IRS under the
guidelines in Revenue Procedure 2004-1, 2004-1 I.R.B. 1 (or superseding Revenue
Procedure for the year at issue). Note: Certain tax classification elections can
be requested by filing Form 8832, Entity Classification Election. See Form 8832
and its instructions for additional information.

- -O '

(IRS USE ONLY)

575B

03-22-2018

AURI

B

0243835987

SS-4
■r.

IMPORTANT REMINDERS:
36

Keep a copy of this notice in your permanent records. This notice is issued
only one time and IRS will not be able to generate a duplicate copy for you.
You may give a copy of this document to anyone asking for proof of your EIN.

*

Use this EIN and your name exactly as they appear at the top of this notice
on all your federal tax forms.

36

Refer to this EIN on your tax-related correspondence and documents.

36

Provide future officers of your organization with a copy of this notice.

Your name control associated with this EIN is AURI. You will need to provide
.
this information/ along with your EIN, if you file your returns electronically.
If you have questions about your EIN, you can contact us at the phone number or
address listed at the top of this notice. If you write, please tear off the stub at
the bottom of this notice and include it with your letter. Thank you for your
cooperation.

X

OS TRSdepartment of the treasury

INTERNAL REVENUE SERVICE
CINCINNATI OH
45999-0023
Date of this notice:

09-10-2019

P

002761.183135.114454.6694 1 MB 0.428 530

Employer Identification Number:
98-6094857
Form:

SS-4

Number of this notice:
TODD ANTHONY
AURIT-FOREIGN GRANTOR
TR
TODD ANTHONY AURIT TTEE
PO BOX 1303
CANON CITY CO
81215
002761

CP 575 D

For assistance you may call us at:
1-800-829-4933
IF YOU WRITE, ATTACH THE
STUB OF THIS NOTICE.

WE ASSIGNED YOU AN EMPLOYER IDENTIFICATION NUMBER
Thank you for applying for an Employer Identification Number CEIN). We assigned
you EIN 98-6094857. This EIN will identify your estate or trust. If you are not the
applicant, please contact the individual who is handling the estate or trust for you.
Please keep this notice in your permanent records.
When filing tax documents, payments, and related correspondence, it is very
important that you use your EIN and complete name and address exactly as shown above.
Any variation may cause a delay in processing, result in incorrect information in your
account, or even cause you to be assigned more than one EIN.
If the information
is not correct as shown above, please make the correction using the attached tear-off
stub and return it to us.
Based on the information received from you or your representative, you must file
the following formCs) by the date(s) shown.
Form 1041

04/15/2020

If you have questions about the formCs) or the due dates(s) shown, you can call
us at the phone number or write to us at the address shown at the top of this notice.
If you need help in determining your annual accounting period Ctax year), see
Publication 538, Accounting Periods and Methods.
We assigned you a tax classification based on information obtained from you or
your representative. It is not a legal determination of your tax classification
and is not binding on the IRS. If you want a legal determination of your tax
classification, you may request a private letter ruling from the IRS under the
guidelines in Revenue Procedure 2004-1, 2004-1 I.R.B. 1 (or superseding Revenue
Procedure for the year at issue). Note: Certain tax classification elections can
be requested by filing Form 8832, Entity Classification Election. See Form 8832
and its instructions for additional information.

CIRS USE ONLY)

575D

09-10-2019

AURI

B

0433422051

SS-4

IMPORTANT REMINDERS:
*

Keep a copy of this notice in your permanent records, This notice is issued
only one time and IRS will not be able to generate a duplicate copy for you.
You may give a copy of this document to anyone asking for proof of your EIN.

*

Use this EIN and your name exactly as they appear at the top of this notice
on all your federal tax forms.

*

Refer to this EIN on your tax-related correspondence and documents.

*

Provide future officers of your organization with a copy of this notice.

Your name control associated with this EIN is AURI. You will need to provide
this information, along with your EIN, if you file your returns electronically.
If you have questions about your EIN, you can contact us at the phone number or
If you write, please tear off the stub at
address listed at the top of this notice,
the bottom of this notice and include it with your letter, Thank you for your
cooperation.

5

1
\

■;!

w•

05/08/2018 09:33Wftri R Fee:$43.00
Katie E. Barr. Clerk and Recorder, Fremont County, CO

III MlrACM IWMMftMMUHMIfffflM I III

HfISS B
mb

i wmum
taa7privateattngeneral@protonmail.com
c/o General Post Canon City, Colorado

NOTICE OF TERMINATION
May 8,2018

Colorado Financing Statement

No.20182027585

from: todd-anthony;aurit
c/o general post office
1501 main street
canon city, Colorado 12 zip code exempt
non domestic, w/o the U.S.
TO: Commissioner/Executive Director
Marguerite Salazar
1560 Broadway, Suitel550
Denver,Colorado 80202
TO: Colorado Department of State
Sec. of State Wayne Williams
1700 Broadway
Suite 200
Denver, CO 80290

Internal Revenue Service
Colorado Springs CO 80906

FEB 11 2019
todd-anthony;aurit -Private Attorney General is respectfuff^Providing to you
the appropriated notice of contract termination, winding up and dissolution
of TODD ANTHONY AURIT-ESTATE of any minimums contact with the State

of Colorado a/k/a Colorado, State of, all operations had been discontinued
by absence from or out of the state and by court order; or under law other
than estate's will and factum.
The decision of termination, winding up and dissolution is based on the
intergenerational equitable right of moral obligation, control and possession
of the ancestral value collateral, now transferred into Private Foreign Estate.
The Private Foreign Estate continues in existence but now under another
jurisdiction other than foreign.
Winding up, termination and dissolution is in accordance with the followinq
rules:
(1) All known debts and liabilities must be paid or adequately provided for.
(2) Any property subject to a condition requiring return to the person
designated by the donor must be transferred to that person.
(3) Any property subject to a trust must be distributed in accordance with
the trust agreement.
(4) Any remaining property must be distributed as follows:
(A) as required by law other than this [act] that requires assets
of an estate to be distributed to that person assigned;
(B) in accordance with the estate's governing principles and by the absence
from or out of the state Colorado applies, under every instance in which the
estate had unclaimed property now that property becomes claimed property.
Also, every instance there was gifted property undisclosed to the estate now
must be refunded and reimbursed as in definition of special deposit.

f * t
by:
todd-anthony; aurit- Private Attorney General
#82-4588652 Non-bar member / non Certified
tta7privateattngeneral@Drotonmail.com
Tel: (719-276-0909)

mm
ITfffTp$4- rjffwfftwi;

taa7privateattngeneral@protonmail.com
c/o General Post Canon City, Colorado state
non domestic

NOTICE OF TERMINATION
June 13,2018
No.20182027585

Colorado Financing Statement
From: todd-anthony;aurit
c/o 1821 North 5th St. #218
Canon City, Colorado 12 Zip Code Exempt
non domestic, w/o the U.S.
To:Commissioner/Executive Director
Marguerite Salazar
1560 Broadway, Suitel550
Denver,Colorado 80202
Cert. Mail#7017 2680 0000 6469 0653

To:Office of the Governor
Governor John Hickenlooper
136 State Capitol Building
Denver, Colorado 80203
Cert. Mail #7017 2680 0000 6469 0660

To:Colorado Department of State
Sec. of State Wayne Williams
1700 Broadway
Suite 200
Denver, CO 80290
Cert. Mail #7017 2680 0000 6469 0677

To: Colorado Department of Revenue
Executor Director Michael Hartman
PO Box 17087
Denver, Colorado 80217-0087
Cert.Mail #7017 2680 0000 6469 0684

To: Office of the Attorney General
Cynthia Coffman AG
Ralph L. Carr Judicial Bldg.
1300 Broadway 10th Floor
Denver, Colorado 80202

Cert. Mail #7017 2680 0000 6469 0646

Service
internal Revenue
Colorado Springs CO 80906

FEB U ^
Received

001
(Public Trustee's)
The Public Trustee's is an office established pursuant to National
(and where applicable, state territory) statute, act as trustee's
usually where a sum is required to be deposited as security by...

?:/

taa7privateattngeneral@protonmail.com
c/o General Post Canon City, Colorado state
non domestic

NOTICE OF TERMINATION
June 13,2018
Colorado Financing Statement

No.20182027585

From: todd-anthony;aurit
c/o 1821 North 5th St. #218
Canon City, Colorado 12 Zip Code Exempt
non domestic, w/o the U.S.
ToiCommissioner/Executive Director
Marguerite Salazar
1560 Broadway, Suitel550
Denver,Colorado 80202
Cert. Mail#7017 2680 0000 6469 0653

ToiOffice of the Governor
Governor John Hickenlooper
136 State Capitol Building
Denver, Colorado 80203
Cert. Mail #7017 2680 0000 6469 0660

To:Colorado Department of State
Sec. of State Wayne Williams
1700 Broadway
Suite 200
Denver, CO 80290
Cert. Mail #7017 2680 0000 6469 0677

To: Colorado Department of Revenue
Executor Director Michael Hartman
PO Box 17087
Denver, Colorado 80217-0087
Cert.Mail #7017 2680 0000 6469 0684

To: Office of the Attorney General
Cynthia Coffman AG
Ralph L. Carr Judicial Bldg.
1300 Broadway 10th Floor
Denver, Colorado 80202
Cert. Mail #7017 2680 0000 6469 0646

(Public Trustee's)
The Public Trustee's is an office established pursuant to National
(and where applicable, state territory) statute, act as trustee's
usually where a sum is required to be deposited as security by...

todd-anthony;aurit -Private Attorney General is respectfully providing to you the
appropriated notice of contract termination, winding up and dissolution of TODD
ANTHONY AllRIT-ESTATE of any minimums contact with the State of Colorado a/k/a
Colorado, State of, all operations had been discontinued by absence from or out of
the state and by court order; or under law other than estate's will and factum.
The decision of termination, winding up and dissolution is based on the
intergenerational equitable right of moral obligation, control and possession of the
ancestral value collateral, now transferred into Private Foreign Estate.
The Private Foreign Estate continues in existence but now under another
jurisdiction other than foreign.
Winding up, termination and dissolution is in accordance with the following rules:
(1) All known debts and liabilities must be paid or adequately provided for.
(2) Any property subject to a condition requiring return to the person designated
by the donor must be transferred to that person.
(3) Any property subject to a trust must be distributed in accordance with the trust
agreement.
(4) Any remaining property must be distributed as follows:
(A) as required by law other than this [act] that requires assets
of an estate to be distributed to that person assigned;
(B)in accordance with the estate's governing principles and by the absence from or
out of the state Colorado applies, under every instance in which the estate had
unclaimed property now
that property becomes claimed property. Also, every instance there was gifted
property undisclosed to the estate now must be refunded and reimbursed as in
definition of special deposit.

by:
todd-anthony;aurit- Private Attorney General
#82-4588652 Non-bar member / non Certified
tta7privateattngeneral@.t>rotonmail.com
Tel: (719-276-0909)

Notice of Removal of Public Trustees
Know all men and women by this present:
l,todd-anthony:aurit el, Private TRUSTEE, PRIVATE ATTORNEY GENERAL as
appointee exercises the equitable power of appointment conferred under the
principles of private equity as a bailee non-certified possession of security exchange
commission member that has possession of security (collateral) of TODD ANTHONY
AURIT-ESTATE
To: JOHN HICKENLOOPER
D/B/A GOVERNOR FOR THE
STATE OF COLORADO
TRUSTEE-PUBLIC
136 State Capitol Bldg.
Denver, Colorado 80203

To: CYNTHIA COFFMAN
D/B/A STATE OF COLORADO
ATTORNEY GENERAL
TRUSTEE-PUBLIC
Ralph L. Carr Judicial Center
1300 Broadway 10th Floor
Denver, Colorado 80203

To: MARGUERITE SALAZAR
D/B/A EXECUTIVE DIRECTOR/
COMISSIONER/OF THE COLORADO
DEPARTMENT OF REGULATORY AGENCIES
TRUSTEE-PUBLIC
1560 Broadway Ste. 1550
Denver, Colorado, 80202

To: WAYNE W. WILLIAMS
D/B/A COLOADO SECRETARY OF STATE/ CLERK
1700 Broadway Ste. 200
Denver, Colorado 80209

pgi

o*" ■

This letter is to inform you of the election of automatic migration provisions. To transfer, to
terminate, removal, and change of a US person domestic trust Estate & Trust of todd - anthony;
aurit el, Social Security Number 516-76-1687 . =====================================
To all public Trustees, since you have remained silent and have failed to answer all "Public
Notices" mailed to your offices, and "Public Notices" by: legal and constructive notices, public in
The Colorado Chieftain Legal Notice News Paper, since you have failed to terminate the
domestic trust Estate & Trust with the state of Colorado and wind up and dissolution of the
Estate of Todd Anthony Aurit now converted into a foreign estate by determination.=========
All public trustees / fiduciaries administrators, creditors. Therefore, are forever noticed / barred
and forever removed.============================================================
This is "Final Notice Order" fiduciary, todd-anthony; aurit-El - Private Attorney General.
I would appreciate you sending me written confirmation that the termination and automatic migration
provisions removal has been put into effect. ==========================================
ALL PUBLIC TRUSTEES / FIDUCIARIES ADMINISTRATORS, CREDITORS, therefor are FOREVER
NOTICED/BARRED AND FOREVER REMOVED... THEREFORE: This is “Final Notice, Order1
Fiduciary, todd-anthony;aurit el, Private Attorney General...

Dated this 10th day of July .2018

Signature: By
Restrictive, Special & Private
todd-anthony;aurit-Private Attorney
General No:82-458865: non-bar
member/non certified
taa7privateattngeneral@protonmail.com

//

II
II
Pg2

‘

-

mil litMi

T*\] I' 5 \

'■[p-

l Mjj.

spEpasa siitiswfti? 2

i

rirrr]

W
taa7privateattngeneral@protonmail.com
c/o General Post Canon City, Colorado state
non domestic

NOTICE OF TERMINATION
February 8,2019
Colorado Financing Statement

No.20182027585

From: todd-anthony;aurit
c/o 1821 North 5th St. #218
Canon City, Colorado 12 Zip Code Exempt
non domestic, w/o the U.S.
ToiCommissioner/Executive Director
Patty Salazar
1560 Broadway, Suitel550
Denver,Colorado 80202
To:Colorado Department of State
Sec. of Jena Griswold
1700 Broadway
Suite 200
Denver, CO 80290
To:Office of the Attorney General
Attorney General Paul Weiser
Ralph L.Carr Judicial Building
1300 Broadway 10th Floor
Denver, Colorado 80203

To:Office of the Governor
Governor Jared Polis
136 State Capitol Building
Denver, Colorado 80203

(Public Trustee)
The Public Trustee's is an office established pursuant to National
(and where applicable, state territory) statute, act as trustee's
usually where a sum is required to be deposited as security by...

todd-anthony;aurit -Private Attorney General is respectfully providing to you
the appropriated notice of contract termination, winding up and dissolution
of TODD ANTHONY AURIT-ESTATE of any minimums contact with the State
of Colorado a/k/a Colorado, State of, all operations had been discontinued
by absence from or out of the state and by court order; or under law other
than estate's will and factum.
The decision of termination, winding up and dissolution is based on the
intergenerational equitable right of moral obligation, control and possession
of the ancestral value collateral, now transferred into Private Foreign Estate.
The Private Foreign Estate continues in existence but now under another
jurisdiction other than foreign.
Winding up, termination and dissolution is in accordance with the following
rules:
(1) All known debts and liabilities must be paid or adequately provided for.
(2) Any property subject to a condition requiring return to the person
designated by the donor must be transferred to that person.
(3) Any property subject to a trust must be distributed in
accordance with the trust agreement.
(4) Any remaining property must be distributed as follows:
(A) as required by law other than this [act] that requires assets
of an estate to be distributed to that person assigned;
(B)in accordance with the estate's governing principles and by
the absence from or out of the state Colorado applies, under
every instance in which the estate had unclaimed property now
that property becomes claimed property. Also, every instance

there was gifted property undisclosed to the estate now must be
refunded and reimbursed as in definition of special deposit.

todd-anthony;aurit- Private Attorney General
#82-4588652 Non-bar member /non Certified
tta7Drivateattngeneral@nrotonmai1.cnm
Tel: (719-276-0909)

•

-(.j*

Notice of Removal pf Public Trustees
Know all men and women by this presents:

!

I, todd-anthony:aurit, Private TRUSTEE, PRIVATE ATTORNEY GENERAL as
appointee exercises the equitable power of appointment conferred under the
principals of private equity as a bailee non-certified possession of security
exchange commission member that has possession of security collateral) of
TODD ANTHONY AURIT-ESTATE.
To: JARED POLIS
D/B/A GOVEROR FOR
STATE OF COLORADO
TRUSTEE-PUBLIC De-Son-Tort
136 State Capitol Building
Denver, Colorado 80203

To :PATTY SALAZAR
D/B/A EXECUTIVE DIRECTOR/
COMMISSIONER OF THE COLORADO
DEPARTMENT OF REGULATORY AGECIES
TRUSTEE-PUBIC De-Son-Tort
1560 Broadway, Suitel550
Denver,Colorado 80202

To.'JENA GRISWOLD
D/B/A COLORADO SECRETARY OF STATE/CLERK
1700 Broadway
Suite 200
Denver, Colorado 80290

To: PAUL WEISER
D/B/A STATE OF COLORADO
ATTORNEY GENERAL
TRUSTEE-PUBLIC De-Son-Tort
Ralph L.Carr Judicial Building
1300 Broadway 10th Floor
Denver, Colorado 80203

pg-i

This Certificate is not valid for use anywhere within the United States of America, its territories or possessions.

APOSTILLE
(Convention de La Haye du 5 octobre 1961)

1. Country: United States of America
Pays | Pafs:
This public document Le present acte public | El presente documento publico

2. has been signed by

Crystal Albers

a dte signe par | ha sido firmado por

3. acting in the capacity of

Notary Public, State of Colorado

agissant en qualite de | quien actua en calidad de

4. bears the seal / stamp of

Crystal Albers, Notary Public State of Colorado

est revetu du sceau / timbre de | y esta revestido del sello / timbre de

Certified Attests I Certificado
5. at

Denver. Colorado

a | en

7. by

6. the
le | el dia

21st day of October. 2019

Jena Griswold. Secretary of State of the State of Colorado

par | por

8. Number

4193448522

sous n° | bajo el numero

9. Seal / stamp
Sceau / timbre | Sello / timbre

10. Signature:
Signature | Firma

This Apostille only certifies the authenticity of the signature and the capacity of the person who has signed the public document, and, where appropriate, the
identity of the seal or stamp which the public document bears. This Apostille does not certify the content of the document for which it was issued. This
Apostille is not valid for use anywhere within the United States of America, its territories or possessions. To verify the issuance of this Apostille, see:
www.sos.state.co.us/auth
This certificate does not constitute an Apostille under the Hague Convention of 5 October 1961, when it is presented in a country which is not a
party to the Convention. In such cases, the certificate should be presented to the consular section of the mission representing the country.
Cette Apostille atteste uniquement la veracite de la signature, la qualite en laquelle le signataire de I'acte a agi et, le cas echeant, I'identite du sceau ou
timbre dont cet acte public est revetu. Cette Apostille ne certifie pas le contenu de I’acte pour lequel elle a ete emise. Cette Apostille n’est pas valide pour
utilisation aux Etats-Unis d’Amerique, ses territoires ou ses possessions. L'emission de cette Apostille peut etre verifiee a I’adresse suivante:
www.sos.state.co.us/auth
Ce certificat ne constitue pas une Apostille en vertu de la Convention de La Haye du 5 Octobre 1961 iorsque presents dans un pays qui n’est pas
partie d cette Convention. Dans ce cas, le certificat doit etre ptesente & la section consulaire de la mission qui reprdsente ce pays.
Esta Apostilla certifica unicamente la autenticidad de la firma, la calidad en que el signatario del documento haya actuado y, en su caso, la identidad del
sello o timbre del que el documento publico este revestido. Esta Apostilla no certifica el contenido del documento para el cual se expidio.
No es valido el uso de esta Apostilla en los Estados Unidos de America, sus territories o posesiones. La emision de esta Apostilla se puede verificar en la
direction siguiente: www.sos.state.co.us/auth
Este certificado no constituye una Apostilla en virtud del Convenio de La Haya de 5 de octubre de 1961 cuando se presenta en un pais que no es
parte del Convenio. En estos casos, el certificado debe ser presentado a la section consular de ia mision que representa a ese pais.

(w

TODD A AURIT - PRIVATE BANK E&T
P.O. Box 1303 Canon City, Colorado 81215

January 3, 2020
To: Colorado Department of Revenue
Attn. Executive Director Lu Cordova
PO Box 17087
Denver, Colorado 80217-0087
From: Todd A Aurit-Private Bank E&T
PO Boxl303
Canon City, Colorado 81215
This letter is to inform you, that we have taken the appropriate informal steps to
notify ex-trustees, ex-administrators, ex-creditors, ex-controllers, and/or ex­
personal representative as terminated any/all disputes, which no claims were made
during important public notices; IRS record showing the non-statutory estate of
Todd A Aurit no longer has to file any form(s).
Proof of Service of Notice of interest by the beneficial owner (individual) was
emplaced by election and determination of (Civil Death) living estate that no
longer has any reasonable base for being treated as a domestic trust for purposes of
section 7701(a) (30).
Please process with the appropriate change of status decedent civil death and send
the information to the address above.

Thanking you in advance,

/s/ Todd A Aurit
Fiduciary Individual Banker CFO
Restricted, Special, Private

2018 Substitute Form 1041 Non -U.S. Person Estate & Trust
Name of the Estate or Trust
Estate of TODD ANTHONY AURIT
!

A
□ Decedent Estate (Civil Death)
C
Employer identification Number
82-6729971
D
Date Entity Created
12-01-2017
F

i

Check Applicable Box
jal Final Return

5
t

I declare that I have reviewed this final return, including accompanying schedules and statements, and
to best of my knowledge and belief, it is true, correct, and complete. Declaration of preparer (other than
taxpayer) is based on all information of which preparer has any knowledge.
Sign Here
✓ //
Signature of fiduciary

\2-/f-/f\
Date

83-2759431
EIN of fiduciary

2018 Substitute Form 1041 Non -U.S. Person Estate & Trust
Do not require to report any information of interest, consideration or trust.
See attached Election Statement.

Inte rna/
Colorado Spr/'n flue Serv/,cs
Ss CO 80906

FEB 1 i 2019
!
i

[This space has been left in black intentionally]

pg. l-l
Todd Anthony Aurit
All right reserved

Received
go?

'social SECURITY i

' -a

,

JAM 14 2013

! CANON CITY, CO D29

TODD A. AUR1TSS#. 516-76-1687

;

ESTATE OF TODD A. AURITEIN # 82-6729971 converted in Ancestral Foreign Estate.
T.A.A. PRIVATE BANKE&T
(exact name and title of fiduciary trustee)
Section 684 (c)

ELECTION STATEMENT
Notice of Beneficiary’s Civil Death, to elect to no longer exist
This letter is to inform you that the estate of TODD A. AURIT Social Security
Number 516-76-1687 elect to no longer exist: as evidence of terminate the
entitlement to any event, benefit and/or service to operate a trade or business and to
prevent any identity theft for reasons of beneficiary civil death.
Furthermore, to inform you of the election of automatic migration to Non-trust
Country and Non U.S. Social Security Agreement since December 1st, 2017 under
IRC & Section 679, to make a gratuitous transfer, immediately termination, under
Pub. L. 105-34 Taxpayer Relief Act of 1997, which was treated as domestic trust
estate Social Security Number 516-76-1687, becoming an Ancestral foreign trust
estate, and Foreign Grantor Trust as FpnpfHary,=^----- -—
------Please, proceed with the appropriated Substitute 1041 Final Return Liquidation
Trust Funds (Unknown Amount) The Federal Old-Age and Survivors Insurance
Trust Fund; The Federal Disability Insurance Trust Fund; and The Federal Hospital
Insurance Trust Fund; process irreversible for the purpose of subsistence and
rehabilitation of the elector. =-----------

Sincerely
/

By: y\ n A n

'> *

Todd Aurit- Individual Banker CFO
Fiduciary/ Trustee/Bailee
Tel: (719)276-0909
kandiekatie78@protonmail .com

COVER SHEET LETTER
Notice of Beneficiary’s Civil Death, to elect to no longer exist

ii

1
-r

This letter is to inform you that the estate of TODD AURIT Social Security
Number xxx-xx-xxxx elect to no longer exist: as evidence of terminate the
entitlement to any event, benefit and/or service to operate a trade or business and to
prevent any identity theft for reasons of beneficiary civil death. =========
Furthermore, to inform you of the election of automatic migration to Non-trust
Country and Non U. S. Social Security Agreement since July 12, 1999 under IRC
& Section 679, to make a gratuitous transfer, immediately termination, under Pub.
L; 105-34 Taxpayer Relief Act of 1997, which was treated as domestic trust estate
Social Security Number xxx-xx-xxxx, becoming an Ancestral foreign trust estate,
and Foreign Grantor Trust as beneficiary. ==================
Please, proceed with the appropriated Substitute 1041 Final Return Liquidation
Trust Funds (Unknown Amount) The Federal Old-Age and Survivors Insurance
Trust Fund; The Federal Disability Insurance Trust Fund; and The Federal Hospital
Insurance Trust Fund, process irreversible for the purpose of subsistence and
rehabilitation of the elector. ==================-------------Note

hFf-

si-

I would appreciate ifyou send me a written confirmation under the Freedom of
Information Act (FOIA) that the liquidation, termination and automatic migration
provision has been put into effect to notify to other Locals, States and U.S.
agencies =======================-------------------------------

Sincerely
By:
Todd Aurit- Individual Banker CFO
Fiduciary/ Trustee/Bailee
Tel: (719)276-0909
kandiekatie78@protonmail .com

A-10

i

f

Authorization of Release of Remains

Deceased: todd-anthony:aurit
Case Number: 04CR220 / 06CR374 / 15CR0538 /Inmate No. 127586
By signing below, I designate the public institution of
to take charge of final order
FREMONT CORRECTIONAL FACILITY
for the deceased individual listed above. I authorize the Office of the Coroner for
Canon City and Fremont County Colorado to release the deceased’s remains
incarcerated in a public institution for the purpose of civil death, guarantee, and/or
collateral. By signing below, I declared that I am the legal next-of-kin(s) to the
deceased, with all rights and privileges thereto under power of attorney.

Printed Name: kathleen aurit-schaefer
Signature:%■ b-.-u.-r-cc^ >>■
Attomey-in-Fact
Relationship to Deceased: Mother
Signature: Date: 01/16/2020

VICE PRESIDENT Colorado Coroner's Association
Randy Keller
615 Macon Avenue, Rm. LL-7
Canon City, CO 81212

01/16/2020

CLAIM TO COLORADO CORONERS ASSOCIATION
Dear: President of the Colorado Coroners Association
May I address to you to present this claim as informal prove and declare
ESTATE OF TODD A. AURIT and the individual todd- anthonyiaurit, civil dead
as purpose of the law, please immediately notifies the district attorney the body
for while incarcerated in a public institution.
The ESTATE OF TODD A. AURIT was declared civilly dead in the eyes of the
law by a judgment of a competent tribunal and jurisdiction. In such case, the
person (individual) against whom such sentence is pronounced is considered dead.
2 John. R. 218. See Gilb. Uses, 150; 2 Bulst. 188; Co. tit. 132; Jenk. Cent. 250; 1
Keble, 398; Prest. on Convey. 140. In and THE STATE OF COLORADO;
therefore, the individual, and all its civil rights and relations of any nature
whatsoever, is deemed to be dead in all respects, as if individual natural death had
taken place at the time of conviction, now, the judgment means the individual has a
shattered character.
CRS §30-10-606
(1.1) the coroner shall request that jurisdiction of a death be transferred to the
coroner of the county in which the event which resulted in the death of the person
occurred,
(1.2) (b) the coroner, in consultation with the district attorney
, shall facilitate
the timely removal of the body (release) to preserve and protect evidence. The
coroner may order the removal of the body for
or release the body to the
next of kin.
(2.5) In the case of a noncriminal investigation, the coroner, in cooperation with
the public administrator if applicable, may take appropriate measures to safeguard
the property and its contents. The coroner may charge the costs of securing the

premises against the estate of the deceased. A coroner who secures or safeguards
the property and its contents is immune from civil liability for damage to or loss of
the property or its contents.
(3) When the coroner has knowledge that any person has died under any of the
above eight circumstances, he or she may summon forthwith six citizens of the
county to appear at a place named to hold an inquest to hear testimony and to
make such inquiries as he deems appropriate.
(4) (c) A copy of the certificate of death or affidavit of presumed death,
including any related documents and statements of fact, shall be retained in the
applicable county in a secure location in an appropriate county facility accessible
only to the county coroner or the coroner's designee and in a manner that is
consistent with the county's record retention policy and federal law.
The claim is maintainable as evidence of “decedent” ESTATE OF TODD A.
AURIT( fiction as purpose of the law adjudicated) and by the direct
pronouncement as burden of proof by publication, by IRS no further required
action letter, by IRS determination letter, by notification to State of Colorado
Board of Trustees, by Colorado State Department Apostille Letter, by Colorado
Department of Revenue, by Colorado Social Security Administration, by a
provision of the Colorado Open Records Act, and by The U.S. General Service
Administration (GSA) streamlines the administrative work of the federal
government, keeping the National Center for statistic U.S. Database such as, Social
Security Administration claims, and by evidence of informal steps have been
notified ex-trustees, ex-administrators, ex-creditors, ex-controllers, and/or ex­
personal representative as terminated any/all disputes.
The claim is against the person(s) denying, or interested to deny, individual title to
such legal character and/or right as to any property, and status, and the court may
in its discretion make therein a declaration that Individual is so entitle, and the
Individual need not ask for further relief.
It is a general rule, that persons who are proved to have been living, will be
presumed to be alive till the contrary is proved and when the issue is upon the
death of a person, the proof of the fact lies upon the party who asserts the death.

4

"4?

Relief
Claimant with clean hands prays for further relief in the name of The Non-U. S.
Person todd-anthony:aurit due process already satisfied in the openings informal
action claims cases:
The claimant had concluded that (individual Non-U.S person todd1.
anthony:aurit ) body a collateral attachment by said outlaw non-statutory ESTATE
OF TODD A. AURIT must be relief from custody by Certificate of Foreign Status;
as a Private Beneficial Owner Non-U. S. Person for United States Tax Withholding
and Reporting (Individuals) and Certificate of Foreign Intermediary, Foreign FlowThrough Entity, or Certain U.S. Branch for United States Tax Withholding and
Reporting;
and a further relief hearing prior to the MANDATE OF BODY
EXECUTION might clear his name by their oath, if necessary to comport with the
habeas corpus requirements of the Article One, Section 9, clause 2 in the United
States and 42 U.S.C. 1983.

2.

Where Pub Law 115-97., clarified that the court within the United States, State or
District of Columbia are not able to exercise primary supervision over the
administration of the FOREIGN TRUST ESTATE OF TODD A. AURIT neither
foreign individual todd -anthony:aurit , and one or more United States persons
have not the authority to control all and/or any substantial decisions of the foreign
individual todd- anthony:aurit, nor enforcement of summons, venues, court test,
control test, minimum contact test, court jurisdiction , subject matter jurisdiction,
territorial jurisdiction and/or personam jurisdictions.
Release of the body is expected immediately upon receipt of this document!!

Civil death is the state of a person who, though possessing natural life, has lost all his civil rights, and, as to them, is
considered as dead. A person convicted and attainted of felony, and sentenced to the state prison for life, is, in the
state of New York, in consequence of the act of 29th of March, 1799, and by virtue of the conviction and sentence of
imprisonment for life, to be considered as civilly dead. 6Johns. C R. 118; 4Johns. C. R. 228, 260; Laws of N. Y.
Sess. 24, ch. 49, s. 29, 30, 31; 1 N. R. L. 157, 164; Co. Litt. 130, a; 3 Inst. 215; 1 Bl. Com. 132, 133; 4 Bl. Com.
332; 4 Vin. Ab. 152.See. CodeCiv. art.22 a 25; 1 Toull. n. 280 and p. 254, 5, note; also, pp. 243-5, n. 272; 1
Malleville's Discussion of the Code Civil, 45, 49, 51, 57. Biret,Vocab. au mot Effigie

*JS
"it

Respectfully submitted this the 16th day of January, 2020

without recourse

By: kathleen aurit-schaefer
Claimant next-of-kin

A-ll

Colorado Open Records Act
1560 Broadway
Denver, Colorado 80202
April 29,2019
To: Colorado State Treasurer
Dave Young
200 E Colfax State Capitol Suite 140
Denver, Colorado 80203
email:treasurer.young@state.co.us
Re: Colorado Open Records Act Request
Dear Disclosure Officer,
This is a request under the Colorado Open Records Act.
I request that a copy of the following documents [or documents with the following
information be provided to me . I am requesting the Surety Serial numbers attached to the
name of todd-anthony:aurit. Case Numbers are as follows: 04CR220 / 06CR374 / 15CR0538 /
96CR473 and Inmate No. 127586.
In order to help to determine my status to assess fees, you should know that I am an
individual seeking information for personal use and not for commercial use.
I am willing to pay fees for this request up to a maximum of $1.00. If you estimate that the
fees will exceed this limit, please inform me first.
Thank you for your consideration of this request.
Sincerely,
todd-anthony:aurit, Private Banker
c/o PO Box 1303
Canon City, Colorado 81212
Ph: 719-276-0909
email: kandiekatie78@protonmail.com]

A-12

To:

Nov 26, 2018
Theresa Ottery
Director
Office of Executive Secretariat & Audit Management
Office of Administrative Services
U.S. General Services Administration
Washington, DC 20405
theresa.ottery@gsa.gov

MANDATE OF BODY EXECUTION

The recent Claim case that you have considered adequately in the name of the nonUnited State person estate of Todd Aurit due process already satisfied in the
Original Action claim case, had concluded that body attachment by said statutory
estate of Todd Aurit must be relief from custody by notice and an opportunity for a
hearing prior to the mandate of body execution, if necessary to comport with the
habeas corpus requirements of the Article One, Section 9, clause 2 in the United
States.
Where Pub Law 115-97., clarified that the court within the United States, State or
District of Columbia are not able to exercise primary supervision over the
administration of the foreign trust estate of Todd Aurit, and one or more United
States persons have not the authority to control all and/or any substantial decisions
of the foreign trust estate of Todd Aurit, neither enforcement of summons, venues,
court test, control test, or court jurisdiction.
Alternatively, the foreign estate and/or trust are not effectively connected with the
conduct of a trade or business within the United States, and are not includible in
gross income under what it says previously.

Please, proceed with the appropriated Final Return proceeding for the purpose of
subsistence and rehabilitation of the elector.

s'

Please, proceed with the appropriated Final Return prw^mo
subsistence and rehabilitation of the elector.

tf,.

Sincerely

:
I
?

!

By:
Todd Aurit-Private Attorney General
Beneficiary/Trustee/Bailee
Tel: (719)276-0909
kandiekatie78@protonmail.com
4
4

P

I

•A

nf

V

4-

November 26,2018

AFFIDAVIT OF SUPPORT OF MANDATE OF EXECUTION
I, Todd Aurit, as unique Ancestral beneficiary for blood by common
ancestor for possession and control. And for the protection of ours past, present,
and future generation’s best interest, state the following on this Affidavit of
Support of Mandate of Execution:
WAIVER to any injustice; elect terminate the body attachment which is no longer
a statutory estate of Todd Aurit, must be relief from custody, close mandate and be
forgiven any sin by personal choice in the name of Yahuah.
Any intentional negligence would be strictly liable to lawsuit in personam.
I Todd Aunt, solemnly sword to Yahuah that this mandate of execution was
declared with consciousness, valuable and irrecoverable time, and it is true.

Sincerely

$/

Todd Aurit
Tel: (719)276-0909
kandiekatie78@protonmail.com

A-13

